No.
IN THE
SUPREME COURT OF THE UNITED STATES

TAVARIUS D. RADFORD, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition for Writ of Certiorari
to the Supreme Court of Illinois

PETITION FOR WRIT OF CERTIORARI

NOTICE AND PROOF OF SERVICE
Mr. Kwame Raoul, Attorney General, 100 W. Randolph St., 12th Floor, Chicago,
IL 60601, eserve.criminalappeals@atg.state.il.us;
Mr. Thomas D. Arado, Deputy Director, State's Attorneys Appellate Prosecutor,
628 Columbus, Suite 300, Ottawa, IL 61350, 3rddistrict@ilsaap.org;
Mr. Jim Rowe, Kankakee County State's Attorney, 450 East Court Street,
Kankakee, IL 60901, JRowe@k3county.net;
Mr. Tavarius D. Radford, 909 W. Park Drive, Kankakee, IL 60901
The undersigned, a member of the Bar of this Court, in compliance with Rules 29 and
33.2, on December 31, 2020, mailed the original and ten copies of the Motion for Leave
to Proceed In Forma Pauperis and Petition for Writ of Certiorari to the Clerk of the
above Court and submitted an electronic copy using the Court's electronic filing
system. On that same date, the undersigned served one copy of the same documents
on opposing counsel and on petitioner by depositing them in the United States mail,
postage prepaid and addressed as above. An electronic version was also served by email
to opposing counsel. All parties required to be served have been served.

T OMAS A. KARALIS
Counsel of Record

